              DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161-2004P10100201-
                            S1
                                                                December 14, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
                      Telephone No.
                      FAX No.
E-m                       ail Address

SUBJECT:          Supplement to Report on Audit of Raytheon Polar Services FY 2004
                  Incurred Cost Audit

REFERENCES:       Prime Contract No. OPP-0000373

CONTRACTOR:       Raytheon Polar Services
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 56
                                                                                     Page
CONTENTS:          Subject of Supplemental Audit                                       1
                   Executive Summary of Supplemental Audit                             1
                   Scope of Supplemental Audit                                         2
                   Results of Supplemental Audit                                       4
                   Contractor Organization and Systems                                34
                   DCAA Personnel and Report Authorization                            55
                   Audit Report Distribution and Restrictions                         56
Appendixes                                                                            57
Audit Report No. 6161-2004P10100201-S1

                          SUBJECT OF SUPPLEMENTAL AUDIT

        This supplemental report revises the questioned Other Direct Costs (ODC) applicable to
the treatment of indirect functions in our original report dated September 25, 2006 because of an
overstatement in the amounts that we reclassified as indirect functions on certain schedules of
that report. The overstatement did not impact our calculation of the audited indirect rates. In
addition, we have incorporated the results of our audit of the RTSC and Raytheon Corporate
allocations, assessments and fringe benefits to Raytheon Polar Services Company.

        We examined the Raytheon Technical Services Company (RTSC) certified final indirect
cost rate proposal dated June 30th, 2005 and related books and records for the reimbursement of
Polar Services FY 2004 incurred costs. The purpose of the examination was to determine
allowability of direct and indirect costs and recommend Contracting Officer-determined indirect
cost rates for FY 2004. The proposed rates apply to prime contract OPP-0000373. A copy of
RTSC Certificate of Final Indirect Costs, dated June 30, 2005 is included as Appendix 1 to this
report.

       The incurred cost proposal is the responsibility of the contractor. Our responsibility is to
express an opinion based on our examination.


                 EXECUTIVE SUMMARY OF SUPPLEMENTAL AUDIT

       Our examination of the $158.2 million proposal related to Polar Services contract
disclosed significant questioned costs, including the following significant items:

 Treatm               ent Indirect Functions                                 $
               Reclassified Corporate and RTSC Allocations
               Expressly unallowable Costs                                       503,316
               Other Direct Cost

SIGNIFICANT ISSUES:

   1. We reclassified $2,860,347 of ODC and $1,607,681 of labor costs related to locally
      incurred indirect functions such as Finance, Facility, and Human Resources.

   2. We reclassified $2,847,084 of Corporate and RTSC allocations that were charged direct
      to the contract as Other Direct Costs (ODC).
Audit Report No. 6161-2004P10100201-S1

   3. We questioned $503,316 related to alcoholic beverages and T shirts booked on the
      Raytheon Polar Services claim as material cost.

   4. We questioned $               of Other Direct Costs based on FAR 31.201-3.

   5. We identified $            of G&A costs in excess of the contract ceiling. The G&A
      rates were recalculated and compared to the claimed rates to determine the amounts in
      excess of the % contract ceiling rate.

   6. We identified $           of overhead costs in excess of the contract ceiling. The
      overhead rates were recalculated and compared to the claimed rates to determine the
      amounts in excess of the % contract ceiling rate.


                           SCOPE OF SUPPLEMENTAL AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •   Federal Acquisition Regulation; and
       •   Cost Accounting Standards.

        For FY 2004, we considered RTSC Accounting System to be adequate for accumulating,
reporting, and billing costs on Government contracts. As described in the Contractor
Organization and Systems section of this report, our examination of RTSC internal controls with
respect to integrity and ethical values identified significant deficiencies which could have a
material impact on the contractor’s submission. The scope of our examination reflects the risk of

                                                 2
Audit Report No. 6161-2004P10100201-S1

unallowable costs being included in the submission and includes expanded testing to provide a
reasonable basis for our opinion.

        In addition, Raytheon Polar Services uses the Polar Operations Financial Management
System (POFMS) to organize costs from the SAP Accounting System and then bill the cost
direct to the National Science Foundation. We have not reviewed POFMS or deemed the system
adequate.

QUALIFICATIONS:

        We evaluated auditable type Government subcontracts for FY 2004 issued by RPSC. We
identified a subcontract awarded to             with a value of $            from which $
were incurred during FY 2004. Based on the NSF-OIG petition, an assist audit from the DCAA
office with cognizant over Agunsa was not performed due to an investigation issue. Therefore,
the results of our evaluation are qualified to the extent that the issuance of this report does not
indicate final acceptance of the claimed subcontract costs.

        The audit report includes unresolved costs related to travel expenses. All travel cost
incurred by RTSC employees are processed through Raytheon Finance Shared Services (FSS) in
Greenville, TX. The DCAA Richardson Branch Office is responsible for auditing travel costs,
processed through FSS, for all Raytheon segments. As of the date of this report we have not
received the assist audit results from the DCAA Richardson Branch and therefore have classified
the travel costs claimed by RTSC as unresolved. Therefore, the results of our evaluation are
qualified pending the receipt of the assist audit on travel expenses.

        The contractor’s segment G&A cost includes $               Homeland Security allocation
from Raytheon Intelligence & Information Systems (IIS). The DCAA South Central Branch
Office is responsible for auditing the IIS Homeland Security allocation and providing an assist
audit report. Therefore, the results of our evaluation are qualified pending the receipt of the
assist audit on the Homeland Security allocation.




                                                3
Audit Report No. 6161-2004P10100201-S1

                          RESULTS OF SUPPLEMENTAL AUDIT

        Total questioned Other Direct Costs (ODC) of $              in our original report
applicable to treatment of indirect functions are revised to $          because of an
overstatement in the amounts that we reclassified as indirect functions on certain schedules of
that report. The overstatement did not impact our calculation of the audited indirect rates. In
addition, we have incorporated the results of the RTSC and Raytheon Corporate allocations,
assessments and fringe benefits to Raytheon Polar Services Company.

       This supplemental report replaces our original report in its entirety.


AUDITOR’S OPINION

       a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in the
Exhibit B of this report.

       b.        Direct Costs. In our opinion, except for the unresolved costs in the amount of
$             , the contractor’s claimed direct costs are acceptable as adjusted by our
examination. We questioned and/or reclassified $                 of direct costs proposed under the
Polar Services contract. Questioned and/or reclassified direct costs by element are presented in
Exhibit A-1, of this report. Direct costs not questioned are provisionally approved pending final
acceptance. Final acceptance of amounts proposed under Government contracts does not take
place until performance under the contract is completed and accepted by the cognizant
authorities, and the audit responsibilities have been completed.

        We discussed the results of our examination with                                     in
an exit conference held on July 20, 2006. RPSC did not concur with our questioned costs. See
Appendix 2 of this report for the contractor’s response to our questioned costs.




                                                 4
Audit Report No. 6161-2004P10100201-S1
EXHIBIT                                              A

            STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                            AND RESULTS OF AUDIT
          RAYTHEON POLAR SERVICES CONTRACT NUMBER OPP-0000373
                 Period January 1, 2004 through December 31, 2004

Cost Element                   Claimed     Questioned            Unresolved           Ref.
Direct Labor               $                $                    $         0      Schedule A-1
Material                                                                          Schedule A-2
Subcontracts                                                                   Schedule    A-3
Other Direct Costs                                             __________         Schedule A-4

Totals                     $                 $                   $

        The claimed cost column represents amounts included in the contractor’s certified
indirect cost submission for the Polar Services contract. This column does not necessarily
represent amounts that the contractor plans to submit for reimbursement under the contract.

         Minor differences may exist in the supporting schedules due to rounding.




                                                 5
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                             A-1

                            RPSC FY 2004 DIRECT LABOR COSTS
                                 AND RESULTS OF AUDIT

                                     Claimed          Questioned
            Cost Element              Cost              Cost                     Ref.

            Direct Labor          $                    $                Note         1

EXPLANATORY NOTE:

1. Direct        Labor:

       a.        Summary of Conclusions:

               We reclassified $            of the contractor’s claimed direct labor associated
       with various indirect functions to the overhead pool based on its disclosed accounting
       practices.

       b.        Basis of Contractor’s Cost:

              The contractor’s claimed labor costs are based on actual costs incurred as
       represented in its accounting books and records.

       c.        Audit Evaluation:

               RPSC recorded $              as direct labor for those labor costs associated with
       the indirect functions of Finance, Facility, and Human Resources using the General
       Management WBS.

              The finance costs for the Polar contract include not only financial reporting, but
       also central timekeeping, general accounting, and other cost accounting functions.
       Furthermore,

                         is dedicated to the Polar Services contract, the contract is still
       considered as having multiple cost objectives.

              These functions specifically support                           working on the Polar
       Services contract and, as such, should be treated as an indirect cost on the contract. In
       addition, the costs should be included in an indirect cost pool because the Polar Services

                                                 6
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-1

      contract has multiple final cost objectives also known as work breakdown structures
      (WBS). Many of these WBS are restricted and require the contractor to segregate,
      accumulate, and report costs by WBS. As a result of these circumstances, the
      contractor’s normal accounting practice is to treat costs related to these indirect functions
      as an indirect cost.




              The reclassified direct labor costs associated with the various indirect functions
      are as follows:

                                                                    Direct Labor
                 Work                                             portion within FY
              Breakdown                                             2004 Indirect
               Structure              WBS Description                 Functions

           R-PS40-207                                              $
           R-PS50-207
            Sub-Total                                              $

           R-PS43-238E01
           R-PS53-238
            Sub-Total                                              $

           R-PS40-208
           R-PS50-208
            Sub-Total                                             $

           Total                                                       $

      d.     Contractor’s Reaction:

              RTSC disagrees that the locally incurred costs for functions like Finance, Facility,
      and Human Resources should be charged indirect. As a result, RTSC does not agree with
      the reclassification of $              of labor costs to an indirect cost.




                                                7
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-1

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e.     Auditor’s Response:

              In our opinion, RTSC position of claiming costs incurred under functions like
                                              as direct costs does not comply with the Cost
      Accounting Standard 418. These functions are clearly indirect costs that should not be
      treated as direct costs. CAS 418 requires the consistent classification of costs as direct or
      indirect. It is RTSC common practice to charge functions like
                                       . Furthermore, RTSC Disclosure Statement, Rev. 11,
      dated January 1, 2004, Part III, Item 3.1.0 describes the criteria to determine whether
      costs are charged directly or indirectly to Federal contracts.

               Moreover, the Polar RFP required the contractor’s cost or pricing data to follow
      its disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect (e.g., locally
      incurred overhead, Raytheon allocations or RTSC allocations) to be treated as direct
      costs to the contract. The Polar RFP and its requirement for the contractor to follow
      disclosed accounting practices is consistent with the intent of the CASB when it
      published comments regarding this issue in Part II, Preambles to the Related Rules and
      Regulations Published by the Cost Accounting Standards Board, Preambles to Part 331,
      Contract Coverage, Comment No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
      cost proposals in ways inconsistent with the cost accounting practices of some or all of
      the potential offerors. The Board recognizes that this has happened in the past, but it
      notes that Board rules, regulations, and Cost Accounting Standards are to be used by
      relevant Federal agencies as well as by contractors and subcontractors, and it believes
      that henceforth requests for proposals must be fully consistent with such rules,
      regulations, and standards, although of course the Federal agency may ask for
      supplementary information to accompany proposals if this is needed to meet the agency’s
      requirements.”

              In summary, RTSC Polar Services should comply with its disclosed accounting
      practice which is a requirement of CAS 418-40(a).




                                                8
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           A-2

                     RPSC CLAIMED FY 2004 MATERIAL COSTS
                             AND RESULT OF AUDIT

               Element of Cost           Claimed         Questioned        Ref.

               Other Material           $                $ 503,316        Note 1

EXPLANATORY NOTE:

1.    Other Material Costs:

      a.     Summary of Conclusions:

              We questioned $503,316 of RPSC other material costs considered unallowable
      per FAR 31.205. From the $503,316 questioned costs, $373,354 represents questioned
      projected costs related to the booking of screen printed t-shirts. Costs of souvenirs,
      models, imprinted clothing, buttons, and other mementos provided to customers or the
      public are unallowable based on FAR 31.205-1(f)(6).

             In addition we questioned $129,962 of costs related to hard liquor purchased for
      consumption in the Antarctic. Costs of alcoholic beverages are expressly unallowable
      based on FAR 31.205-51.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed other material costs are based on actual costs incurred as
      represented in the contractor’s SAP accounting system under several projects. According
      to the contractor, many of the material costs incurred are for resale in on-ice facilities
      such as stores or bars. The contractor also stated that the revenue associated with these
      activities is credited back to the contract on each of its quarterly expenditure reports. The
      purpose for booking the costs to the contract was to ensure that the contractor receive fee
      on these items since they were required to obtain and furnish items of this nature. The
      contract requires the contractor to provide the opportunity for persons working on the
      Antarctic program (both RTSC and Non-RTSC) to participate in morale, welfare, and
      recreation facilities such as social establishments. The function of providing the
      opportunity for these types of facilities like bars and stores are allowable based on the
      inherent nature of the contract; however, alcohol, and items for resale in gift shops should
      not be considered allowable and billable costs to the contract.


                                               9
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-2

      c. Audit       Evaluation:

              We obtained a detailed report of other material cost transactions (cost element
      522010) from RPSC SAP Accounting System and performed a statistical sample
      selection of this cost for project R-PS42. We reviewed the supporting documentation for
      the transactions in our sample. The total of other material costs questioned was projected
      to the universe by using the EZ Quant Statistical Analysis Sampling Program.

              Furthermore, we performed a judgmental sample selection of other material costs
      for the following work breakdown structures:

                     R-PS42-223C22E09BA
                     R-PS42-223C22E09BC
                     R-PS42-224C22E09BC
                     R-PS42-222C22E09AE

              We also performed a judgmental sample selection of other material costs for
      project R-PS41. The statistical and judgmental sample selections were performed to
      verify the allowability, allocability and reasonableness of cost through transaction
      testing. We performed transaction testing to confirm that Raytheon Polar Services
      follows RTSC Cost Accounting Standards, FAR and RPSC contract requirements.

      d. Contractor’s      Reaction:

                                                      sent to DCAA a memorandum response on
      September 13, 2006 which states that RPSC did not incur the costs of alcohol and
      souvenirs for the benefit of itself or its own employees; nor were the store inventory
      items, including clothing and other souvenirs, acquired for either “public relations” or
      “advertising” purposes. Accordingly, these are not the type of costs that were intended to
      be treated as unallowable under FAR 31.205-1 or 31.205-51. Even if DCAA is correct
      that the costs are public relations costs covered by FAR 31.205-1, the costs are expressly
      allowable because they are clearly and specifically required under the contract.

              The audit report also notes the use of DCAA’s EZ-Quant Questioned Cost
      Projection model to derive the amount of questioned costs for this item. RTSC takes
      exception to this methodology and does not concur that it is appropriate to use it as the
      means of calculating questioned cots.




                                               10
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-2

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e. Auditor’s      Response:

              It is DCAA responsibility to make sure that government contracts get paid what
      has been established under contract agreements but most important to assure that claimed
      costs comply with Federal regulations. We disagree with RPSC and still believe that
      RPSC does not want to recognize that its FY 2004 claim includes costs which are
      expressly unallowable based on the Federal Acquisition Regulation.

              Furthermore, we do recognize that RPSC credits back the revenue resulting from
      these product sales but not against contract costs. The contractor offsets the cost with
      revenue only on the quarterly expenditure report. The costs are not reduced by revenue
      in any final accumulation point. This practice allows the contractor to receive G&A
      burden and fee on what the FAR defines as expressly unallowable items. The practice of
      booking unallowable costs direct to the contract makes the contractor in noncompliance
      with FAR 31.205. Specifically, FAR 31.205-14 states that:

              Costs of amusement, diversions, social activities, and any directly associated
      costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
      and gratuities are unallowable. Costs made specifically unallowable under this cost
      principle are not allowable under any other cost principle. Costs of membership in
      social, dining, or country clubs or other organizations having the same purposes are also
      unallowable, regardless of whether the cost is reported as taxable income to the
      employees.

             The contractor has taken the position that the contract makes the subject costs
      expressly allowable and does not intend on removing them from the incurred cost
      submission. Therefore we find that the contractor is in noncompliance with Cost
      Accounting Standard (CAS) 405 – Accounting for Unallowable Costs.

             In addition to the CAS and FAR noncompliances, there is also no visibility to
      determine if the contractor’s revenues exceed the costs creating a profit situation or if the
      management of these costs is actually a loss position which would create an effect of
      having the government subsidize the loss on the unallowable costs.




                                               11
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           A-2

              In summary, contracts can require a variety of provisions and supplies based on
      the basic contract agreement and further modifications. However, government contracts
      need to follow public law as defined by the Cost Accounting Standards and also the
      Federal Acquisition Regulation as agreed to in the contract per FAR Clause 52.230-2.
      The FAR 31.201-1(b) states:

             “While the total cost of a contract includes all costs properly allocable to the
      contract, the allowable costs to the Government are limited to those allocable costs
      which are allowable pursuant to Part 31 and applicable agency supplements”.

             Furthermore, the Statement on Auditing Standards (SAS) No. 39 states:

            “The auditor should project the misstatement results of the sample to the items
      from which the sample was selected”.




                                              12
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           A-3

                       RPSC CLAIMED SUBCONTRACT COSTS
                             AND RESULTS OF AUDIT

           Element of Cost              Claimed          Unresolved          Ref.

           Subcontracts             $                    $                  Note 1


EXPLANATORY NOTE:

1.    Subcontract Cost:

      a.     Summary of Conclusions:

             We classified $            of subcontract cost as unresolved due to restrictions on
      the scope of audit imposed by the National Science Foundation (NSF).

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed subcontract costs are based on actual costs incurred as
      represented in its accounting books and records.

      c.     Audit Evaluation:

             We reviewed the contractor’s schedule J from the FY 2004 incurred cost
      submission to ascertain which subcontractors had costs in excess of $          dollars.
      According to the NSF, we did not send an assist audit request to the DCAA office with
      cognizance over Agunsa due to an investigation issue. Based on the materiality of the
              subcontract, we qualified our audit report due to the scope of audit restriction
      from NSF.




                                              13
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-4

            CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                         AND RESULT OF AUDIT

       Cost Element                  Claimed              Questioned            Ref.

       Other Direct Cost         $                        $                    Note 1

EXPLANATORY NOTE:

1.    Other Direct Costs

      a.     Summary of Conclusions:

               We questioned a total of $         of RPSC other direct cost for FY 2004. From
      this total $          was associated with the contractor’s classification of indirect
      functions as direct contract costs, $          is related to the contractor’s reclassification
      of Corporate allocations from indirect to direct contract costs and $266,745 represents
      questioned costs based on FAR 31.201-3.




             Furthermore, the RTSC CAS Disclosure Statement, Version 11, Section 4.1.0




             The following table shows the breakdown of indirect functions classified as direct
      contract costs on RTSC Polar Services books and records.




                                               14
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            A-4

                                                                              FY 2004 Cost
  Work Breakdown                                                           to be reclassified to
      Structure          WBS Description                                           OH
  R-PS00-2A0100                                                                 $
  R-PS00-2B0100
  R-PS20-207
  R-PS30-207
  R-PS40-207
  R-PS50-207
   Sub-Total                                                                          $

  R-PS00-2A0014                                                                  $
  R-PS00-2B0014
  R-PS20-212
  R-PS30-212
  R-PS43-238E01
  R-PS43-238E06
  R-PS43-238E08
  R-PS43-238E09
  R-PS43-238E14
  R-PS53-238
   Sub-Total                                                                     $

  R-PS00-2A0120                                                                  $
  R-PS00-2B0120
  R-PS20-208
  R-PS30-208
  R-PS40-208
  R-PS50-208
   Sub-Total                                                                      $

  Total                                                                    $

              In addition, the break down of the $               questioned costs related to the
      contractor’s reclassification of Corporate allocations from indirect to direct contract costs
      are as follows:




                                               15
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                         A-4

                                                                                   Transaction
Doc. No.       Journal Entry Description WBS                 Element                Amount
110729690      July 2004 Corporate Allocations        R-PS40-201E08BA                $
110752825      August 2004 Corporate Allocations      R-PS40-201E08BA
110790063      Sept 2004 Corporate Allocations        R-PS40-201E08BA
110594031      January 2004 Corporate Allocations     R-PS40-201E08BA
110594031      February 2004 Corporate Allocations    R-PS40-201E08BA
110618218      March 2004 Corporate Allocations       R-PS40-201E08BA
110645318      April 2004 Corporate Allocations       R-PS40-201E08BA
110674082      May 2004 Corporate Allocations         R-PS40-201E08BA
110695593      June 2004 Corporate allocations        R-PS40-201E08BA
FY 2004 Total Billable Allocations to Raytheon Polar OH                             $

100172517       October 2004 Corporate Allocations         R-PS09-1C06
100172517       November 2004 Corporate Allocations        R-PS09-1C06
100172517       December 2004 Corporate Allocations        R-PS09-1C06
Total Non-Billable Allocations to Raytheon Polar OH                                 $

FY 2004 Total Reclassified Allocations                                              $

              Moreover, we questioned $            associated with a late charge fee for the
      unpaid balance to                                    . We used the EZ Quant Statistical
      Analysis Sampling Program to project $115 of other direct costs among the projects
      selected for transaction testing including project R-PS43, R-PS40, R-PS47, R-PS44, R-
      PS41, R-PS53, R-PS42, R-PS58, R-PS45 and R-PS33. The statistical sample projection
      resulted in a total of $266,745 other direct costs questioned for FY 2004. This cost is not
      reasonable and we questioned this cost based on FAR 31.201-3.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed Miscellaneous ODC’s is based on actual costs incurred
      as represented in its accounting books and records.

             Locally incurred cost/allocations were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (R-PS43 and PS53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

            Furthermore, the Corporate allocations charged on the Polar contract are based on
      Raytheon Technical Services manual journal entries for the months of January through
                                            16
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           A-4

                                                                                   Transaction
Doc. No.       Journal Entry Description WBS                 Element                Amount
110729690      July 2004 Corporate Allocations        R-PS40-201E08BA                $
110752825      August 2004 Corporate Allocations      R-PS40-201E08BA
110790063      Sept 2004 Corporate Allocations        R-PS40-201E08BA
110594031      January 2004 Corporate Allocations     R-PS40-201E08BA
110594031      February 2004 Corporate Allocations    R-PS40-201E08BA
110618218      March 2004 Corporate Allocations       R-PS40-201E08BA
110645318      April 2004 Corporate Allocations       R-PS40-201E08BA
110674082      May 2004 Corporate Allocations         R-PS40-201E08BA
110695593      June 2004 Corporate allocations        R-PS40-201E08BA
FY 2004 Total Billable Allocations to Raytheon Polar OH                              $

100172517       October 2004 Corporate Allocations         R-PS09-1C06
100172517       November 2004 Corporate Allocations        R-PS09-1C06
100172517       December 2004 Corporate Allocations        R-PS09-1C06
Total Non-Billable Allocations to Raytheon Polar OH                                  $

FY 2004 Total Reclassified Allocations                                              $

              Moreover, we questioned $115 associated with a late charge fee for the unpaid
      balance to                                       . We used the EZ Quant Statistical
      Analysis Sampling Program to project $115 of other direct costs among the projects
      selected for transaction testing including project R-PS43, R-PS40, R-PS47, R-PS44, R-
      PS41, R-PS53, R-PS42, R-PS58, R-PS45 and R-PS33. The statistical sample projection
      resulted in a total of $266,745 other direct costs questioned for FY 2004. This cost is not
      reasonable and we questioned this cost based on FAR 31.201-3.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed Miscellaneous ODC’s is based on actual costs incurred
      as represented in its accounting books and records.

             Locally incurred cost/allocations were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (R-PS43 and PS53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

            Furthermore, the Corporate allocations charged on the Polar contract are based on
      Raytheon Technical Services manual journal entries for the months of January through
                                              16
Audit Report No. 6161-2004P10100201-S1                                SCHEDULE A-4

      September to transfer allocation costs on the overhead pool (OH051) to other direct costs
      within project R-PS40-201E08BA.

      c.     Audit Evaluation:

             RPSC total ODCs for FY 2004 based on Schedule H is $                   dollars. We
      obtained the cost detail of the ODC transactions for the identified universe and made a
      judgmental sample of the top ten project numbers with the highest ODC dollar amounts.
      From the total ODC’s we excluded all the cost related to the WBS No. R-PS43-
      237D09E08AE (totaling $             ) and all the cost related to WBS No. R-PS58-
      251H09F08AE (totaling $            ). We excluded the costs related to the WBS
      mentioned above from our sample due to the fact that these costs were reclassified to
      another WBS as part of the Christchurch New Zealand petty cash process.

              We developed a transaction testing plan and due to the large amount of
      transactions we performed a statistical sample selection of Miscellaneous ODCs within
      project: R-PS43, R-PS40, R-PS47, R-PS44, R-PS41, R-PS53, R-PS42, R-PS58, R-PS45
      and R-PS33. We evaluated the transactions source documents by using the contractor’s
      SAP Accounting System reports to verify completeness and accuracy, and determine the
      appropriateness of the charge with respect to terms of the contract and FAR/CAS.

               Furthermore, we reviewed the work breakdown structure (WBS) for the Polar
      contract and confirmed that the contractor was booking local support functions as direct
      costs. The WBS listing was then reviewed to determine the various support functions
      that, in our opinion, were an indirect function of the program. We concentrated primarily
      on the support functions of Finance, Facilities, and Human Resources based on their
      materiality.

             We have reclassified the costs associated with the Finance, Facilities, and Human
      Resources indirect functions. Our analysis of each indirect function that, in our opinion,
      should be classified as an indirect cost based on the


             (1)     Finance:




                                              17
Audit Report No. 6161-2004P10100201-S1             SCHEDULE A-4




         This page redacted in its entirety




                                              18
Audit Report No. 6161-2004P10100201-S1             SCHEDULE A-4

         This page redacted in its entirety




                                              19
Audit Report No. 6161-2004P10100201-S1                                  SCHEDULE A-4




      d.     Contractor’s Reaction:

              RTSC disagrees that the locally incurred costs for functions like Finance, Facility
      and Human Resources should be charged indirect. As a result, RTSC does not agree with
      the reclassification of $             of ODC to an indirect cost. RTSC’s disclosed
      accounting practices at the time of contract award through today have consistently stated
      that costs required to be charged direct in a specific contract may be charged direct even
      if they are normally indirect costs.

             Furthermore, RTSC agrees that the late charge fee to
                   should not have been charged to the contract. RTSC requests the document
      number be provided by DCAA to RTSC so that a correcting journal entry may be
      completed to move the late charge fee to non billable. Once the journal voucher is posted
      and the fee cost is moved then RTSC considers all questioned costs to be allowable.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e.     Auditor’s Response:

             RPSC continues to deny the nature of
      costs when it is RTSC’s common practice to accumulate these types of costs within the
      overhead pool. CAS 418-40(a) requires Polar Services to have a written statement of
      accounting policies and practices for classifying costs as direct and indirect and to apply
      those policies and practices consistently. These policies and practices are included in
      RTSC’s CAS disclosure statement applicable to FY
                                               20
Audit Report No. 6161-2004P10100201-S1                                SCHEDULE A-4




              The Polar RFP required the contractor’s cost or pricing data to follow its
      disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect (e.g., locally
      incurred overhead, Raytheon allocations or RTSC allocations) to be treated as direct
      costs to the contract. The Polar RFP and its requirement for the contractor to follow
      disclosed accounting practices is consistent with the intent of the CASB when it
      published comments regarding this issue in Part II, Preambles to the Related Rules and
      Regulations Published by the Cost Accounting Standards Board, Preambles to Part 331,
      Contract Coverage, Comment No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
      cost proposals in ways inconsistent with the cost accounting practices of some or all of
      the potential offerors. The Board recognizes that this has happened in the past, but it
      notes that Board rules, regulations, and Cost Accounting Standards are to be used by
      relevant Federal agencies as well as by contractors and subcontractors, and it believes
      that henceforth requests for proposals must be fully consistent with such rules,
      regulations, and standards, although of course the Federal agency may ask for
      supplementary information to accompany proposals if this is needed to meet the agency’s
      requirements.”

              In summary, RTSC Polar Services should comply with the disclosed accounting
      practices of RTSC which is a requirement of CAS 418-40(a). RPSC initial disclosure
      statement dated April 17, 2006 has an effective date of January 1, 2005 and is therefore
      not applicable to this audit.




                                              21
Audit Report No. 6161-2004P10100201-S1
EXHIBIT                                       B

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                          AND RESULTS OF AUDIT
                   Polar Services Contract No. PRSS-0000373
               Period January 1, 2004 through December 31, 2004

        Claimed                          Questioned        Audited Ref.
Overhead
Pool            $                        $            $                   Schedule B-1
Base
Rate

Fringe Benefits
Pool               $                 $                 $                  Schedule B-2
Base

G&A
Pool              $                  $                $                   Schedule B-3
RPSC VAB
Rate




                                             22
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                               B-1

              CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                             AND RESULTS OF AUDIT

                                                           Amount            Amount Ref.
     Claimed Overhead Pool                                              $

     Reclassified Costs:
     Locally Incurred Costs                            $                                   Note 1
     Corporate & RTSC Allocations                                                          Note 2
     Total Questioned Pool Costs                                                    )

     Revised Pool                                                       $

     Claimed Direct Labor Base                                           $

     Reclassified Costs:
     Locally Incurred Labor Costs                   $                                      Note 1
     Total Questioned Base Costs

     Revised Overhead Base                                               $

EXPLANATORY NOTES:

1.       Overhead – Locally Incurred Costs/Functions

         a.      Summary of Conclusions:

                 Our examination of the overhead pool for locally incurred cost resulted in an
         increase in the overhead pool of $            . We found that RPSC did not always
         classify indirect functions and associated costs in accordance with its disclosed
         accounting practices. Instead, the contractor recorded all local support (indirect)
         functions to the Polar Services contract as direct costs. As a result, we reclassified $
                      of Miscellaneous ODC and $               of labor costs to the local overhead
         pool.




                                                  23
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records. These costs were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (PS-43 and PS-53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

      c.     Audit Evaluation:

             The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. The contract and the original proposal were
      reviewed to determine contract requirements for support functions during the term of the
      contract. The contractor’s disclosure statement (disclosed accounting practices) was also
      reviewed for the treatment of costs regarding the functions as described. According to
      the contract, the contractor is required to follow its disclosed accounting practices. NSF
      RFP No. OPP98001, Amendment No. 8 required the contractor’s cost or pricing data to
      follow its Cost Accounting Standards Board Disclosure Statement (Form CASB DS-1).
      We confirmed that the contractor was recording all local support functions to the Polar
      Services contract as direct costs. The WBS listing was then reviewed to determine the
      various support functions that were indirect to the program. The significant support
      functions reviewed that were indirect to the program were Finance, Human Resources,
      and Facilities.

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1 of this report. Our reclassification of the
      Miscellaneous ODC is discussed in further detail in Schedule A-4, Note 1 of this report.

2.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

              Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by $              with a
      proportionate decrease in ODC. The contractor’s disclosed accounting practice
      accumulates and classifies these costs as indirect for subsequent allocation to cost
      objectives. As a result, we reclassified these RTSC and Corporate allocations to the
      overhead pool consistent with the contractor’s disclosed accounting practices.


                                              24
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                            B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c.     Audit Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a    overhead ceiling rate.

              It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS. The RTSC disclosure statement Revision
      9C Section 4.1.0 states that the Business Area Overhead major elements of costs include
      redistributed expenses which consists of “allocations from Raytheon Corporate, RTSC,
      and Business Unit Management for services provided that benefit the business area”.
      The incurred costs submissions for Raytheon Technical Services requires that specific
      allocations are to be made to overhead while others are to be booked within the business
      unit G&A (B&P) pools. No costs listed in the allocations reviewed were to be booked
      direct to a contract as ODC.

              Our reclassification of the RTSC and Corporate allocations to the local overhead
      pool is discussed in further detail in Schedule A-4, Note 1 of this report.

      d.     Contractor’s Reaction:

              RTSC continues to believe that inclusion of RTSC allocations as direct costs
      reflects an appropriate methodology to implement the original intent of the proposal, and
      subsequent contract, to charge normally indirect services as direct costs to the contract.
      RTSC’s disclosure statement has consistently permitted items that are normally charged
      indirect to be charged as direct costs to the benefiting contract. As was the case with the
      locally incurred costs, RTSC believes that services performed by other entities within
      Raytheon which benefit the Polar program, as well as system costs for systems in use on
      the Polar contract, may also be appropriately collected as direct costs to the contract even
      if those cost are allocated to Polar as flow downs from RTSC and Corporate.




                                               25
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                           B-1

              It is important to emphasize that Polar has not reclassified any G&A expense flow
      downs from Raytheon or RTSC as direct costs even though the actual G&A rate has
      consistently exceeded the program’s capped rate since program inception. Nor has RTSC
      reclassified all overhead flow downs from Raytheon and RTSC as direct costs. We
      contend that this reclassification is in accordance with our disclosed practices and is
      consistent with the parties’ original intent on the contract.

      e.     Auditor’s Response:

              We recognize that RPSC and RTSC have not reclassified all allocations direct to
      the contract but that does not justify the treatment of allocations that they did charge
      direct. The contractor judgmentally selected certain RTSC and Corporate allocations
      (flow-down costs) to charge direct to the Polar contract while others remained indirect.
      The contractor’s actual and disclosed accounting practice is to accumulate all of these
      RTSC and Corporate flow costs in its overhead pool (not just certain flow-down costs)
      for subsequent allocation to business units. We reclassified to the overhead pool all flow
      down costs to the Polar business unit that the contractor elected to charge direct to the
      contract. We are not aware of any other business units that judgmentally select certain
      allocations and charge the associated costs direct to the contract.

             We believe that RTSC and Corporate allocations should be part of the overhead
      based on RTSC Disclosure Statement, Rev. 11, dated January 1, 2004, Item 4.1.0. If
      RTSC Disclosure Statement specifically states that




                                              26
Audit Report No. 6161-2004P10100201-S1
SCHEDULE                                              B-3

                                  FRINGE BENEFITS
                           COMPUTATION OF AUDIT ADJUSTMENT
                                                                                      Questioned
                                                                                         Costs
                                                                                       (Upward
     Union    Fringe       Audited                              Audited   Claimed     Adjustment
     Code      Pool         Rate Labor         Base             Fringe      Fringe         )
     RTQ 21925                           $                  $             $           $
     RTT 21903
      RTJ 20912
      R01 20900
                                                                                                  $
 Total                                   $                  $             $

 Total Fringe Questioned/Audit Adjustment                                              $

EXPLANATORY NOTE:

1.       Fringe Expense:

         a.     Summary of Conclusions:

                An audit of the claimed fringe expenses resulted in questioned costs of $
         for FY 2004. The questioned costs resulted from the application of audited RTSC rates
         as opposed to the contractor’s claimed rates to the applicable fringe codes to Polar
         Services.

         b.     Basis of Contractor’s Cost:

                 The contractor applies RTSC claimed fringe rates to the labor bases that the Polar
         program participates in. Participation is based on the various union codes applicable to
         the labor incurred.

         c.     Audit Evaluation:

                 We determined the applicable labor bases for each of the union codes that RPSC
         participates in. The RTSC audited fringe rates for FY 2004 were applied to the labor
         according to the union code associated with the labor bases. The applied fringe was then
         compared to the claimed fringe from the contractor’s incurred cost submission for the

                                                 27
 Audit Report No. 6161-2004P10100201-S1                                SCHEDULE B-3

       same time frame resulting in an over application of claimed fringe cost of $        (See
       Schedule B-2).

              CLAIMED AND AUDITED G&A POOL, BASES AND RATE
                          AND RESULT OF AUDIT

                   Claimed              Questioned         Audited
                      Costs FY           Costs FY          Costs FY        Unresolved
G&A                     2004              2004              2004             Cost Note

Total Pool           $                   $                 $               $               Note 1
Polar VAB                                                                              Note     2
Polar G&A Rate

 EXPLANATORY NOTE

 1.    G&A Pool Expenses

       a.     Summary of Conclusions:

             Our examination of the Polar G&A pool resulted in questioned allocated cost of
       $15,094 and unresolved costs in the amount of $        resulting from the FY 2004
       RTSC incurred cost audit.

               The RTSC Incurred Cost Audit Report No. 6161-2004T10100001 disclosed
       penalty and interest questioned costs based on FAR 31.205-15, which states “penalties
       resulting from violations of, or failure of the contractor to comply with, Federal, State,
       local, or foreign laws and regulations, are unallowable…” The Audit Report No. 6161-
       2004T10100001 also disclosed questioned costs related to equipment capitalization
       based on FAR 31.201-4, Allocability. The RTSC FY 2004 incurred cost audit also
       disclosed unresolved costs based on the DCAA Raytheon Corporate Office Audit Report
       No. 2671-2004A10100001, dated April 27, 2006.

              In addition, the contractor’s segment G&A cost includes
       allocation from                                                     . The DCAA South
       Central Branch Office is responsible for auditing     and issuing an assist audit on the
       Homeland Security costs. Pending receipt of the assist audit, we have unresolved the
       claimed cost.


                                               28
Audit Report No. 6161-2004P10100201-S1                                 SCHEDULE B-3

              We also have unresolved travel expenses included in the segment G&A. All
      travel costs incurred by RTSC employees are processed through Raytheon Finance
      Shared Services (FSS) in Greenville, TX. The DCAA Richardson Branch Office is
      responsible for auditing travel costs, processed through FSS, for all Raytheon segments.
      As of the date of this report we have not received the assist audit results from the DCAA
      Richardson Branch and therefore have classified the travel costs claimed by RTSC as
      unresolved.

      b.      Basis of Contractor’s Cost:

           The contractor’s costs for G&A were based primarily on allocated costs from
      RTSC. No locally incurred G&A expenses were identified on the Polar program.

             RPSC G&A expense represent residual costs allocated based on a value added
      base. The main costs categories included as segment G&A are RTSC general
      management, restructuring, and corporate allocations including legal and state income
      tax.

      c.      Audit Evaluation:

              We reviewed RPSC G&A Summary Report on the contractor’s SAP Accounting
      System and found no locally incurred G&A expenses. Moreover, RTSC G&A allocated
      costs to Raytheon Polar Services Company were audited in the FY 2004 Incurred Cost
      Audit. Part of this audit consisted in reconciling the expenses representing allocations
      from the Raytheon Corporate office and the amounts included in the DCAA Raytheon
      Corporate office’s audit report. The FY 2004 RTSC audit results of allocated G&A
      expenses were disclosed under Audit Report No. 6161-2004T10100001, dated September
      29, 2006. This audit report disclosed unallowable G&A expenses in the amount of $
                 from which $              pertains to RPSC. The Audit Report No. 6161-
      2004T1010001 also disclosed unresolved G&A expenses in the amount of $
      from which $              pertains to RPSC.

2.    Value Added G&A Base

      a.     Summary of Conclusions:

              The questioned G&A base cost of $              are solely related to the questioned
      fringe costs. Since the contractor uses a value added G&A base, a reduction in fringe
      costs has an equal effect on the G&A base.

                                              29
Audit Report No. 6161-2004P10100201-S1                                 SCHEDULE B-3

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its actual books and records.
      c.      Audit Evaluation:

              The labor costs have been segregated based on the applicable fringe bases and
      contractor fiscal year. The RTSC audited fringe rates for FY 2004 were then applied to
      the labor according to the union code associated with the labor bases. The applied fringe
      was then compared to the claimed fringe from the contractor’s incurred submission for
      the same time frame resulting in an over application of claimed fringe cost of $
      (See Schedule B-2).




                                              30
  Audit Report No. 6161-2004P10100201-S1
  EXHIBIT                                            C

               OVERHEAD COSTS IN EXCESS OF CONTRACT RATE CEILINGS
                          Polar Services Contract No. PRSS-0000373
                      Period January 1, 2004 through December 31, 2004

  Overhead:
                                              Rate
Claimed Rate (-)     Ceiling   Rate=( )       Delta (x)   Claimed      Base=( ) Total       Ref.
 (Exhibit B)                                                   (Exhibit B)
           -                   =                     x       $                 =  $                Note 1
                                              Rate
 Audited Rate (-)    Claimed Rate=( )         Delta (x)   Audited    Base=( )
(Schedule B-1)           (Exhibit B)                        (Schedule B-1)
           -                 =                       x      $                 =                    Note 2

Overhead Costs in Excess of Ceiling                                                $

  G&A:
                                              Rate
Claimed Rate (-)     Ceiling   Rate=( )       Delta (x)   Claimed     Base=( ) Total        Ref.
 (Exhibit B)                                                  (Exhibit B)
           -                   =                     x         $              =  $                 Note 1

  *No adjustment to the G&A rate is recommended at this time. The claimed rate is
  equivalent to the audited rate.

  EXPLANATORY NOTES:

  1.      Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

          a.        Summary of Conclusions:

                  We computed the overhead and G&A costs in excess of the ceiling rates. These
          amounts represent the cost in excess of the ceiling rates based on the contractor’s claimed
          indirect rates and allocation bases, i.e., without any audit adjustments.




                                                   31
Audit Report No. 6161-2004P10100201-S1
EXHIBIT                                          C

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead costs in excess of the ceiling rates. These amounts
      represent the costs in excess of the ceiling rates that includes the audit adjustments
      discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead costs in excess of the ceiling rates that reflect our
      audit adjustments. These amounts represent the costs in excess of the ceiling rates based
      on incorporating the audit adjustments made to the contractor’s indirect cost pools and
      allocation bases. Any comparison to billed costs should be performed after final
      negotiations and resolution with the contractor.

      d.     Contractor’s Reaction:

             RTSC agrees with DCAA that these costs are not allowable on the contract.
      However, according to the contractor the costs are appropriately allocable to the contract
      and therefore need to be included in the incurred cost claim even though there is no

                                              32
Audit Report No. 6161-2004P10100201-S1
EXHIBIT                                          C

      intention in recovering these costs from the Polar customer. RTSC stated that it has not
      included any of these over ceiling costs in the billings to date and has no intention of
      billing them in the future.

      e.     Auditor’s Response:

              We disagree that the contractor has not recovered the cost in excess of the ceiling
      rates. The contractor has billed and recovered a portion of the over ceiling amounts by
      reclassifying indirect costs as direct (e.g., Corporate/RTSC allocations, etc.). We
      reclassified these direct costs (e.g. locally incurred support costs, Corporate/RTSC
      allocations, etc.) to overhead and computed the amounts that exceeded the contract’s
      ceiling rates.




                                              33
Audit Report No. 6161-2004P10100201-S1

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC’s headquarters is located in Reston, VA.




                                      REDACTED




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately $                 in FY 2005, of which approximately
percent are primarily government prime contracts and subcontracts. Of the government contracts
and subcontracts, approximately               are flexibly priced (i.e. cost type and time and
materials (T&M) type).

                                               34
Pages 35 through 37 have been redacted in their entirety.
Audit Report No. 6161-2004P10100201-S1




                                         REDACTED




       In Audit Report Num ber 6161-2006T 11510301, dated Septem ber 26, 2006, DCAA
examined the RTSC information technology (IT) system and related internal control policies and
procedures. Based on our examination we concluded that the IT system general internal controls
are adequate.
                                           38

                               FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004P10100201-S1

IV.    Budget and Planning System




                                                  .

        DCAA reviewed RTSC’s Budget and Planning System and related internal control
policies and procedures under Audit Assignment No. 6161-2006T11020301 dated
September 8, 2006. Based on its review DCAA determined that the RTSC’s Budget and
Planning system and the related internal control policies and procedures are adequate.




                                             39

                               FOR OFFICIAL USE ONLY
Pages 40 and 41 have been redacted in their entirety.
Audit Report No. 6161-2004P10100201-S1




                                       REDACTED




B.     Raytheon Polar Services Company

                DCAA examined RPSC’s Indirect and Other Direct Cost System of internal
controls under Audit Assignment No. 6161-2004T14980202, with a report issued on December
15, 2005. Based on its examination, DCAA determined that the RPSC Indirect and Other Direct
Cost System was inadequate. The examination disclosed significant deficiencies in all four (4)
of the control objectives (Allowability, Allocability, Management Compliance Reviews, and
Training) applicable to the RPSC indirect and other direct cost system. Those deficiencies could
result in unallowable or misallocated indirect and other direct costs in proposals, billings, and
claims submitted to the U.S. Government. A brief summary of the deficiencies are as follows:

                                               42

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004P10100201-S1


               •   The RTSC segment disclosure statement which defines the contractor’s
                   current accounting practice regarding indirect and ODC costs, excludes
                   Raytheon Polar Services as of January 1, 2005. To date, a disclosure
                   statement for Raytheon Polar Services has not been submitted to the
                   Government.

               •   Policies and procedures regarding the allowability of selected costs are in
                   noncompliance with the Federal Acquisition Regulation (FAR) Part 31.
                   Specifically, RPSC policies and procedures address certain costs as allowable
                   which, in our opinion, are expressly unallowable based on applicable FAR
                   provisions.

               •   Costs that are made expressly unallowable based on the FAR or RPSC/RTSC
                   policies and procedures were charged as allowable, indicating that the
                   contractor is not adequately complying with established controls to properly
                   classify and record unallowable costs. The deficiencies represent a
                   noncompliance with CAS 405-40(a), Accounting for Unallowable Costs, FAR
                   Part 31, and established company policies and procedures.

               •   The contractor lacks policies and procedures regarding the training of
                   employees in the Indirect/ODC system.

               •   The contractor has inadequate policies and procedures regarding periodic,
                   independent management reviews and its associated compliance.

               •   We identified inadequacies that affect the allocability of costs indicating that
                   the contractor lacks adequate controls to ensure the consistent classification of
                   costs based on CAS 418, Allocation of Direct and Indirect Cost [CAS 418-
                   40(a)].

                As a result of these deficiencies we have assessed control risk as high for control
objectives related to compliance reviews and training, and moderate for control objective related
to preparation of indirect and other direct cost submissions. Therefore, our audit effort will be
increased in the following review areas: contract pricing (forward pricing rates and bid
proposals); defective pricing; incurred indirect and other direct costs, and contract reporting.




                                                43

                                 FOR OFFICIAL USE ONLY
Page 44 has been redacted in its entirety.
Audit Report No. 6161-2004P10100201-S1

       B.     Raytheon Polar Services Company

                DCAA examined Raytheon Polar Services Company’s (RPSC’s) billing system
internal controls under Audit Assignment No. 6161-2005P11010001, with a report issued on
April 3, 2006. Based on its examination, DCAA determined that the RPSC Billing System and
related internal control policies and procedures are inadequate in part. The examination
disclosed seven (7) significant deficiencies in two (2) separate internal control objectives
(Management Reviews and Policies and Procedures) in the RPSC Billing System that results in a
reduction of the Government reliance on RPSC direct and indirect cost billing to the
Government. A brief summary of the deficiencies are as follows:

              •   The RPSC Quarterly Expenditure Report and Advance Payment Requests do
                  not show evidence of Management Reviews prior to submission to the
                  government.

              •   RPSC has no formal training process for reporting expenditures. In addition,
                  RPSC has no training process to assist employees in identifying and
                  monitoring restricted funds and unallowable costs.

              •   RPSC did not brief the contract upon award of the Polar Services contract.
                  Adequate preparation and maintenance of contract briefs as part of the billing
                  process is necessary to disclose all significant requirements and all current
                  and relevant changes to the contract for billing and other RPSC personnel
                  requiring contract specific information.

              •   RPSC has no written policies and procedures requiring segregation of duties
                  between the employee who prepares, approves or certifies the Advance
                  Payment Requests and the Quarterly Expenditure Reports.

              •   RPSC did not provide adequate supporting documentation of an actual
                  process that monitors cost incurred and subsequently billed on restricted Work
                  Breakdown Structures (WBS). We found no process in place to identify,
                  select and approve costs incurred applicable to WBS with restricted funds.

              •   RPSC did not provide any evidence of reconciliations performed between the
                  Quarterly Expenditure Reports and the source of cost (SAP Accounting
                  System). Furthermore, RPSC provided no evidence of comparisons between
                  the actual rates to the billed ceiling rates to ensure that the lower of those rates
                  are always billed.


                                                45

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004P10100201-S1

            •   RPSC did not provide adequate supporting documentation on how it monitors
                the adequacy of the subcontractor’s accounting and billing systems in a timely
                manner.




                                    REDACTED




                                            46

                              FOR OFFICIAL USE ONLY
Pages 47 through 50 have been redacted in their entirety
Audit Report No. 6161-2004P10100201-S1

 CAS               418: Audit Report No. 6161-2005T19200001, dated June 23, 2005, indicates
that the actual cost accounting practices of one of RTSC’s business units, Raytheon Polar
Services Company (RPSC), are in noncompliance with CAS 418 and with disclosed cost
accounting practices. Specifically, during the period from January 1, 2000 through
December 31, 2002, costs that were disclosed as indirect were recorded and charged direct to the
Polar Services contract. Recording and charging these costs direct to the contract results in 100
percent recovery through contract billings to the government (i.e., National Science Foundation).
On September 28, 2005, the DACO issued an initial finding of noncompliance. In a letter dated
August 22, 2006, the DACO issued a final determination that found Raytheon Polar Services
was in noncompliance with its disclosed accounting practices and CAS 418. In response to the
DACO’s final determination, RPSC submitted a cost impact statement on October 24, 2006. Our
office has scheduled an examination of that cost impact statement to be performed in GFY 2007.



                        The remainder of this page has been redacted




                                               51

                                FOR OFFICIAL USE ONLY
Pages 52 through 54 have been redacted in their entirety
Audit Report No. 6161-2004P10100201-S1

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contact(s) regarding this audit:




Other contact(s) regarding this audit report:

                      , Branch Manager

                                                             FAX No.


                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                55

                                  FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004P10100201-S1




                Page 56 has been redacted in its entirety




                                         56

                           FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004P10100201-S1




                            APPENDIX 1

                           Certificate of Final Indirect Costs




                                         57

                           FOR OFFICIAL USE ONLY
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161–2003P10100201-
                            S1

                                                      December 14, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
                      Telephone No.
                      FAX No.
E-m                       ail Address

SUBJECT:          Supplement to Report on Audit of Raytheon Polar Services FY 2003
                  Incurred Cost Audit

REFERENCES:       Prime Contract No. OPP-0000373

CONTRACTOR:       Raytheon Polar Services
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 58
                                                                                     Page
CONTENTS:          Subject of Supplemental Audit                                       1
                   Executive Summary of Supplemental Audit                             1
                   Scope of Supplemental Audit                                         2
                   Results of Supplemental Audit                                       4
                   Contractor Organization and Systems                                36
                   DCAA Personnel and Report Authorization                            57
                   Audit Report Distribution and Restrictions                         58
Appendixes                                                                            59
Audit Report No. 6161-2003P10100201-S1

                          SUBJECT OF SUPPLEMENTAL AUDIT

        This supplemental report revises the questioned Other Direct Costs (ODC) applicable to
the treatment of indirect functions in our original report dated September 25, 2006 because of an
overstatement in the amounts that we reclassified as indirect functions on certain schedules of
that report. The overstatement did not impact our calculation of the audited indirect rates.

        We examined the Raytheon Technical Services Company (RTSC) certified final indirect
cost rate proposal dated October 13, 2004 and related books and records for the reimbursement
of Polar Services FY 2003 incurred costs. The purpose of the examination was to determine
allowability of direct and indirect costs and recommend Contracting Officer-determined indirect
cost rates for FY 2003. The proposed rates apply to prime contract OPP-0000373. A copy of
RTSC Certificate of Final Indirect Costs, dated October 13, 2004 is included as Appendix 1 to
this report.

       The incurred cost proposal is the responsibility of the contractor. Our responsibility is to
express an opinion based on our examination.


                 EXECUTIVE SUMMARY OF SUPPLEMENTAL AUDIT

       Our examination of the $142.5 million proposal related to Polar Services contract
disclosed significant questioned costs, including the following significant items:

             Treatment of Indirect Functions                                  $
             Reclassified Corporate and RTSC Allocations
             Expressly Unallowable Costs
             RPSC Share of Questioned Allocations
             G&A Pool Questioned Costs
             Fringe Benefits

SIGNIFICANT ISSUES:

   1. We questioned $          related to the application of audited RTSC fringe rates as
      opposed to the contractor’s claimed rates to the applicable fringe codes for Polar
      Services.

   2. RTSC Audit Report No. 6161-2003T10100001 disclosed unallowable costs (based on
      FAR 31.205-14) within the RTSC General Management expenses, RTSC Legal, RTSC
      State Income Tax, and RTSC Restructuring. Raytheon Polar Services Company portion
      of the RTSC questioned costs from Audit Report No. 2003T10100001 is $      .
Audit Report No. 6161-2003P10100201-S1

   3. We identified $           of overhead costs in excess of the contract ceiling. The
      overhead rates were recalculated and compared to the claimed rates to determine the
      amounts in excess of the    contract ceiling rate.

   4. We identified $            of G&A costs in excess of the contract ceiling. The G&A
      rates were recalculated and compared to the claimed rates to determine the amounts in
      excess of the    contract ceiling rate.

   5. We questioned $            as a result of alcoholic beverages, T-shirts, ornaments, hats,
      bobble heads, and glasses booked as material costs for FY 2003.

   6. We reclassified $             of ODC and $              of labor costs related to


   7. We reclassified $            of Corporate and RTSC allocations that were changed direct
      to the contract as Other Direct Costs (ODC).

   8. We questioned $           of RPSC allocations based on the Raytheon Corporate and
      RTSC assessments audit results (Audit Assignment No. 6161-2005T10160208).


                           SCOPE OF SUPPLEMENTAL AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance




                                                2

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201-S1

       We evaluated the incurred cost proposal using the applicable requirements contained in
the:

       •   Federal Acquisition Regulation, and
       •   Cost Accounting Standards.

        For FY 2003, we considered RTSC accounting system to be inadequate in part for
accumulating, reporting, and billing costs on Government contracts. As described in the
Contractor Organization and Systems section of this report our examination of RTSC internal
controls with respect to integrity and ethical values identified significant deficiencies which
could have a material impact on the contractor’s submission. The scope of our examination
reflects the risk of unallowable costs being included in the submission and includes expanded
testing to provide a reasonable basis for our opinion.

        In addition, Raytheon Polar Services uses the Polar Operations Financial Management
System (POFMS) to organize costs from the SAP accounting system and then bill the cost direct
to the National Science Foundation. We have not reviewed POFMS or deemed the system
adequate.




                                                 3
Audit Report No. 6161-2003P10100201-S1

                          RESULTS OF SUPPLEMENTAL AUDIT

        Total questioned Other Direct Costs (ODC) of $5,802,718 in our original report
applicable to treatment of indirect functions are revised to $4,334,446 because of an
overstatement in the amounts that we reclassified as indirect functions on certain schedules of
that report. The overstatement did not impact our calculation of the audited indirect rates.

       This supplemental report replaces our original report in its entirety.

AUDITOR’S OPINION:

       a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in the
Exhibit B of this report.

       b.      Direct Costs. In our opinion, the contractor’s claimed direct costs are acceptable
as adjusted by our examination. We questioned and/or reclassified $               of direct costs
proposed under the Polar Services contract. Questioned and/or reclassified direct costs by
element are presented in Exhibit A, of this report. Direct costs not questioned are provisionally
approved pending final acceptance. Final acceptance of amounts proposed under the Polar
Services contract does not take place until performance under the contract is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

       A schedule of the claimed and audited overhead and G&A costs in excess of the
contractor’s ceiling rates is included in Exhibit D of this report.

        We discussed the results of our examination with
in an exit conference held on July 20, 2006. RPSC did not concur with our questioned costs.
See Appendix 2 of this report for the contractor’s response to our questioned costs.




                                                 4
Audit Report No. 6161-2003P10100201-S1                                       EXHIBIT A

           STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                           AND RESULTS OF AUDIT
         RAYTHEON POLAR SERVICES CONTRACT NUMBER OPP-0000373
                Period January 1, 2003 through December 31, 2003

Cost Element                      Claimed               Questioned                Ref.
Direct Labor                                                                  Schedule A-1
Material                                                                      Schedule A-2
Subcontracts
Other Direct Costs                                                            Schedule A-3

Totals

        The claimed cost column represents amounts included in the contractor’s certified
indirect cost submission for the Polar Services contract. This column does not necessarily
represent amounts that the contractor plans to claim for reimbursement under the contract.

         Minor differences may exist in the supporting schedules due to rounding.




                                                5
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE A-1

                           RPSC FY 2003 DIRECT LABOR COSTS
                                AND RESULTS OF AUDIT

                                    Claimed
           Cost Element              Cost          Questioned Cost            Ref.

           Direct Labor                                                      Note 1

EXPLANATORY NOTE:

1.    Direct Labor

      a.        Summary of Conclusions:

              We reclassified $               of the contractor’s claimed direct labor associated
      with various indirect functions to the overhead pool based on its disclosed accounting
      practices.

      b.        Basis of Contractor’s Cost:

             The contractor’s claimed labor costs are based on actual costs incurred as
      represented in its accounting books and records.

      c.        Audit Evaluation:

             The contractor recorded $                 as direct labor for those labor costs
      associated with the indirect functions of Facility, Finance and Human Resources using
      the General Management WBS.

              We could not locate facilities costs for the Colorado office which is the primary
      location for the Polar support functions. It was determined that a separate direct
      accumulation point for the facilities costs was developed. Upon further analysis, it was
      determined that the majority of the costs contained within the facilities WBS were solely
      for the facilities located at 7400 South Tucson Way, Centennial, Colorado 20191.

             The finance costs for the Polar contract include not only financial reporting, but
      also central timekeeping, general accounting, and other cost accounting functions.




                                               6
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE A-1

             Furthermore,
                                                                            . While the Human
      Resource function is dedicated to the Polar Services contract, the contract is still
      considered as having multiple cost objectives.

              These functions specifically support                            working on the Polar
      Services contract and, as such, should be treated as an indirect cost on the contract. In
      addition, the costs should be included in an indirect cost pool because the Polar Services
      contract has multiple final cost objectives also known as Work Breakdown Structures
      (WBS). Many of these WBS are restricted and require the contractor to segregate,
      accumulate, and report costs by WBS. As a result of these circumstances, the
      contractor’s normal accounting practice is to treat costs related to these indirect functions
      as an indirect cost.




              The reclassified direct labor costs associated with the various indirect functions
      are as follows:

    Work Breakdown                                             Direct Labor portion within
        Structure                WBS Description               FY 2003 Indirect Functions
    R-PS30-207
    R-PS40-207
     Subtotal

    R-PS30-212
    R-PS43-238E01
     Subtotal

    R-PS20-208
    R-PS30-208
    R-PS40-208
     Subtotal
    Total




                                               7
Audit Report No. 6161-2003P10100201-S1                                      SCHEDULE A-1

      d.     Contractor’s Reaction:

              RTSC disagrees that the locally incurred costs for functions like
                            should be charged indirect. As a result, RTSC does not agree with
   the reclassification of $             of labor costs to             .

            The complete text of the contractor’s response to our audit findings is included as
   Appendix 2 of this report.

      e.     Auditor’s Response:

              In our opinion, RTSC position of claiming costs incurred under functions like
                                             as direct costs does not comply with the Cost
   Accounting Standard (CAS) 418. These functions are clearly indirect costs that should not
   be treated as direct costs. CAS 418 requires the consistent classification of costs as direct or
   indirect. RTSC common practice is to charge functions like Finance, Facility, and Human
   Resources as indirect costs. Furthermore,




              In addition, the Polar RFP required the contractor’s cost or pricing data to follow
   its disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
   (procurement) did not require any costs normally classified as indirect (e.g.,
                                                               to be treated as direct costs to the
   contract. The Polar RFP and its requirement for the contractor to follow disclosed cost
   accounting practices is consistent with the intent of the CASB when it published comments
   regarding this issue in Part II, Preambles to the Related Rules and Regulations Published by
   the Cost Accounting Standards Board, Preambles to Part 331, Contract Coverage, Comment
   No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
   cost proposals in ways inconsistent with the cost accounting practices of some or all of the
   potential offerors. The Board recognizes that this has happened in the past, but it notes that
   Board rules, regulations, and Cost Accounting Standards are to be used by relevant Federal
   agencies as well as by contractors and subcontractors, and it believes that henceforth
   requests for proposals must be fully consistent with such rules, regulations, and standards,
   although of course the Federal agency may ask for supplementary information to
   accompany proposals if this is needed to meet the agency’s requirements.”


                                                8
Audit Report No. 6161-2003P10100201-S1                               SCHEDULE A-1

             In summary, RTSC Polar Services should comply with its disclosed accounting
   practice which is a requirement of CAS 418-40(a).




                                            9
Audit Report No. 6161-2003P10100201-S1                                  SCHEDULE A-2

                     RPSC CLAIMED FY 2003 MATERIAL COSTS
                             AND RESULT OF AUDIT

             Element of Cost            Claimed      Questioned          Ref.
             Other Material         $                $ 603,887          Note 1

EXPLANATORY NOTE:

1.    Other Material Costs

      a.     Summary of Conclusions:

             We questioned a total of $603,887 of RPSC other material cost for FY 2003.
      From the $603,887 questioned costs, $56,748 were associated with alcoholic beverages,
      calendars, discovery hut ornaments, T-shirts, Garment Washed Chino Twill Cap, fleece
      hats multi colored styles with “SWEETLIDS, ANTARTICA” label, Antarctic bobble
      heads, and badminton rackets. We used the EZ Quant Statistical Analysis Sampling
      Program to project $56,748 dollars of other material questioned cost to the R-PS32 other
      material project cost universe. This projection resulted in a total of $593,932 other
      material questioned costs for FY 2003.

             Furthermore, as a result of our transaction testing based on a judgmental sample
      we questioned $9,955 associated with sunglasses. The following table summarizes the
      other material questioned cost transactions for FY 2003:




                                              10
Audit Report No. 6161-2003P10100201-S1                            SCHEDULE A-2

                                                                         Questioned
 Project Document      No. Description                                     Cost
 R-PS32      100962968       Red wine                                    $      142
 R-PS32 101220104            USAP Calendar                                   19,295
 R-PS32      101278852       Discovery Hut Ornaments                         15,920
 R-PS32      101614058       T Shirts                                           234
 R-PS32      101444452       T Shirts                                         1,840
 R-PS32      101588562       T Shirts                                         2,295
 R-PS32      101588569       T Shirts                                         1,791
 R-PS32      101444453       Garment Washed Chino Twill Cap                   1,605
 R-PS32 101606705            Fleece Hats                                      5,399
 R-PS32      101358906       Antarctic Bobble Heads                           4,775
                             Vodka Absolut, Glenfiddich, Wild Turkey,
 R-PS32 101097132            Jameson.                                            482
 R-PS32      101570857       Glenfiddich Special Reserve Malt/Canis            2,313
                             Cream Liquor Amarula, RHUM NEGRITA,
 R-PS32 101280443            Ron Don Q Cristal.                                  216
 R-PS32      101467095       FH STL Badminton Racket                              65
 R-PS32      101570880       Midori Melon Liqueur                                375
                               Sub-Total                                 $    56,748
                             EZ-Quant Questioned Cost Projection             537,184
                             Other Material Cost Questioned for R-PS32   $   593,932

 R-PS33       101215642       Glasses (non-prescription sunglasses)      $     9,955
 Total                        FY 2003 Other Material Questioned Costs    $   603,887




                                         11
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE A-2

             Costs related to alcoholic beverages are unallowable based on FAR 31.205-51.
      Costs of souvenirs, models, imprinted clothing, buttons, and other mementos provided to
      customers or the public are unallowable based on FAR 31.205-1. FAR 31.201-6 states
      “expressly unallowable costs are required to be segregated from otherwise billable
      contract costs” and can not be made allowable by any other FAR clause or contract
      requirement. All of these costs should be accumulated in an unallowable or otherwise
      non-billable WBS. The booking of these types of costs direct to a billable portion of the
      contract allows for two (2) conditions where the government is at risk:

             (1)     Fee is being applied to expressly unallowable items, and

             (2)     The government is assuming any loss associated with mismanagement of
                     the on-ice facilities such as stores or bars. The offset of unallowable costs
                     with generated revenue does not make the costs otherwise allowable, and
                     therefore they should be segregated from billable costs.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed other material costs are based on actual costs incurred as
      represented in the contractor’s SAP accounting System under project R-PS32 and R-
      PS33. According to the contractor, these items are for resale in on-ice facilities such as
      the stores or bars. The contractor also stated that the revenue associated with these
      activities is credited back to the contract on each of its quarterly expenditure reports. The
      purpose for booking the costs to the contract was to ensure that the contractor receives
      fee on these items since they were required to obtain and furnish items of this nature.
      The contract requires the contractor to provide the opportunity for persons working on
      the Antarctic program (both RTSC and Non-RTSC) to participate in morale, welfare, and
      recreation facilities such as social establishments. The function of providing the
      opportunity for these types of facilities like bars and stores are allowable based on the
      inherent nature of the contract; however, alcohol, and items for resale in gift shops should
      not be considered allowable and billable costs to the contract.

      c.     Audit Evaluation:

               We obtained a detailed report of other material cost transactions (cost element
      522010) from RPSC SAP Accounting System and performed a statistical sample
      selection of this cost for projects R-PS32 and R-PS37. We also performed a judgmental
      sample selection of other material costs for projects R-PS31, R-PS33 and R-PS34. The
      statistical and judgmental sample selections were performed to verify the allowability,
      allocability, and reasonableness of cost through transaction testing.

                                               12
Audit Report No. 6161-2003P10100201-S1                                    SCHEDULE A-2

           We performed transaction testing to confirm that Raytheon Polar Services follows
      RTSC Cost Accounting Standards, FAR and RPSC contract requirements.

      d.     Contractor’s Reaction:

              RTSC did not concur with the DCAA direct material questioned costs and its
      projection using the EZ-Quant Statistical Analysis Sampling Program. RTSC
      acknowledged that alcoholic beverages, T-shirts, ornaments, hats, bobble heads, and
      glasses are items in company stores being sold to the U.S. Antarctic Program participants
      as part of the overall morale program on the contract. The revenue that results from these
      products sales is credited back to the contract to offset the costs associated with
      purchasing these items. Even if costs of the above items were unbillable/unallowable
      costs, and they are not; (according to the contractor) the associated revenue must be
      credited against the allegedly unallowable costs.

              Furthermore, the contractor did not agree with the questioned cost projection
      using the EZ-Quant methodology as the means of calculating questioned costs. RTSC
      did not concede that the total questioned amount accurately reflects the costs incurred for
      these items in FY 2003.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e.     Auditor Response:

              Government contracts are required to follow the Federal Acquisition Regulation
      (FAR). While we understand that the Polar contract was developed for a particular
      program with specific needs it still should comply with the FAR. Unallowable costs
      identified in the FAR can not be claimed as allowable costs under government contracts.

               We disagree with RPSC and still believe that RPSC does not want to recognize
      that its FY 2003 claim includes costs which are expressly unallowable based on the
      Federal Acquisition Regulation.

              Furthermore, we do recognize that RPSC credits back the revenue resulting from
      these product sales but not against contract costs. The contractor offsets the costs with
      revenue only on the quarterly expenditure report. The costs are not reduced by revenue
      in any final accumulation point. This practice allows the contractor to receive G&A
      burden and fee on what the FAR defines as expressly unallowable items.


                                              13
Audit Report No. 6161-2003P10100201-S1                                      SCHEDULE A-2

             The practice of booking unallowable costs direct to the contract makes the
      contractor in noncompliance with FAR 31.205. Specifically, FAR 31.205-14 states that:

              Costs of amusement, diversions, social activities, and any directly associated
      costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
      and gratuities are unallowable. Costs made specifically unallowable under this cost
      principle are not allowable under any other cost principle. Costs of membership in
      social, dining, or country clubs or other organizations having the same purposes are also
      unallowable, regardless of whether the cost is reported as taxable income to the
      employees.

             We believe that as long as RTSC Polar Services recognizes the fact that they are
      booking unallowable costs as allowable items they are noncompliant with Cost
      Accounting Standard (CAS) 405 – Accounting for Unallowable Costs. The CAS 405
      contains guidelines on:

             (1)      Identification of costs specifically described as unallowable, at the time
      such costs first become defined or authoritatively designated as unallowable and;

              (2)     The cost accounting treatment to be accorded such identified unallowable
      costs to promote the consistent application of sound cost accounting principles covering
      all incurred costs.

             In addition to the CAS and FAR noncompliances, there is also no visibility to
      determine if the contractor’s revenues exceed the costs creating a profit situation or if the
      management of these costs is actually in a loss position which would create an effect of
      having the government subsidize the loss on the unallowable costs.

              In summary, contracts can require a variety of provisions and supplies based on
      the basic contract agreement and further modifications. However, government contracts
      need to follow public law as defined by the Cost Accounting Standards and also the
      Federal Acquisition Regulation based on FAR Clause 52.230-2.

      The FAR 31.201-1(b) states:

      “While the total cost of a contract includes all costs properly allocable to the contract,
      the allowable costs to the Government are limited to those allocable costs which are
      allowable pursuant to Part 31 and applicable agency supplements”.




                                               14
Audit Report No. 6161-2003P10100201-S1                                   SCHEDULE A-2

      Furthermore, the Statement on Auditing Standards (SAS) No. 39 states:

      “The auditor should project the misstatement results of the sample to the items from
      which the sample was selected.”




                                             15
Audit Report No. 6161-2003P10100201-S1                                    SCHEDULE A-3

            CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                         AND RESULT OF AUDIT

      Cost Element Claimed                  Questioned             Ref.

      Other Direct Costs       $                     $                 Note       1

EXPLANATORY NOTES:

1.    Other Direct Costs

      a.     Summary of Conclusions:

              We questioned $                of RPSC miscellaneous other direct costs (ODC) for
      FY 2003. Of this amount $                 is related to the contractor’s classification of
      indirect functions as direct contract costs (see Table on page 18).




                                              16
Audit Report No. 6161-2003P10100201-S1                                    SCHEDULE A-3

                                                                           FY 2003
                                                                         Questioned
        Work Breakdown Structure W        BS Description                 Pool Costs
        R-PS00-2A0100                                                    $
        R-PS00-2B0100
        R-PS20-207
        R-PS30-207
        R-PS40-207
         Sub-Total                                                       $

        R-PS00-2A0014                                                     $
        R-PS00-2B0014
        R-PS20-212
        R-PS30-212
        R-PS43-238E01
        R-PS43-238E06
        R-PS43-238E08
        R-PS43-238E09
        R-PS43-238E14
         Sub-Total                                                       $

        R-PS00-2A0120                                                     $
        R-PS00-2B0120
        R-PS20-208
        R-PS30-208
        R-PS40-208
         Sub-Total

          Total                                                          $

              Of the $              Miscellaneous ODC questioned, $              is related to
      the contractor’s reclassification of Corporate and RTSC allocations from indirect to
      direct contract costs (see Table on page 19).




                                              17
Audit Report No. 6161-2003P10100201-S1                                   SCHEDULE A-3

                        Journal Entry                                    Transaction
           Doc. No.     Description WBS                 Element           Amount
                        Polar Indirect-Direct
           100094039    Reclassification R-PS30-201D08BA                  $

                        2003 Qtr 1 & 2 Polar
           110399452    Direct-Indirect              R-PS30-201D08BA

           110450692 Polar    Direct-Indirect        R-PS30-201D08BA

                        FY 2003 Raytheon Polar
                        Allocation Adjustment
           110539869    Jan-June R-PS40-201E08BA

           FY 2003 Total Reclassified Allocations                         $

      b.        Basis of Contractor’s Cost:

             The contractor’s claimed Miscellaneous ODC is based on actual costs incurred as
      represented in its accounting books and records.

             Locally incurred cost/allocations were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (PS-43 and PS-53). These costs when booked and billed as direct costs reduced
      the amount of overhead incurred on the contract.

             Furthermore, the RTSC and Corporate allocations charged on the Polar contract
      were obtained from the Raytheon Technical Services Incurred Cost submissions for fiscal
      year 2003.

      c.        Audit Evaluation:

             We reviewed the Work Breakdown Structure (WBS) for the Polar contract and
      confirmed that the contractor was booking all local support functions as direct costs. The
      WBS listing was then reviewed to determine the various support functions that, in our
      opinion, were an indirect function of the program. We concentrated primarily on the
      support functions of                                           based on there materiality.




                                                18
Pages 19 through 23 have been redacted in their entirety.
Audit Report No. 6161-2003P10100201-S1                            EXHIBIT B

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                         AND RESULTS OF AUDIT
                   Polar Services Contract No. OPP-0000373
               Period January 1, 2003 through December 31, 2003

        Claimed                          Questioned       Audited Ref.
Overhead
Pool               $                      $           $                  Schedule B-1
Base
Rate

Fringe Benefits
Pool                                                                     Schedule B-2
Base

G&A
Pool                                                                 Schedule    B-3
RPSC VAB
Rate




                                          24
Audit Report No. 6161-2003P10100201-S1                                         SCHEDULE B-1

              CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                             AND RESULTS OF AUDIT

                                                 Am        ount              Amount        Ref.

     Claimed Overhead Pool

     Reclassified Costs:
     Locally Incurred Costs                            $                                  Note 1
     Corporate & RTSC Allocations                                                         Note 2
     RPSC Share of Questioned Allocations                                                 Note 3
     Total Questioned Pool Costs

     Revised Pool                                                       $

     Claimed Direct Labor Base                                           $

     Reclassified Costs:
     Locally Incurred Labor Costs                                                         Note 1
     Total Questioned Base Costs

     Revised Overhead Base

EXPLANATORY NOTES:

1.       Overhead – Locally Incurred Costs/Functions

         a.      Summary of Conclusions:

                 Our examination of the overhead pool for locally incurred cost resulted in an
         increase in the overhead pool of $               . We found that RPSC did not always
         classify indirect functions and associated costs in accordance with its disclosed
         accounting practices. Instead, the contractor recorded all local support (indirect)
         functions to the Polar Services contract as direct costs. As a result, we reclassified $
                       of Miscellaneous ODC and $              of labor costs to the local overhead
         pool.




                                                  25
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records. These costs were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (PS-43 and PS-53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

      c.     Audit Evaluation:

             The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. The contract and the original proposal were
      reviewed to determine contract requirements for support functions during the term of the
      contract. The contractor’s disclosure statement (disclosed accounting practices) was also
      reviewed for the treatment of costs regarding the functions as described. According to
      the contract, the contractor is required to follow its disclosed accounting practices. NSF
      RFP No. OPP98001, Amendment No. 8 required the contractor’s cost or pricing data to
      follow its Cost Accounting Standards Board Disclosure Statement (Form CASB DS-1).
      We confirmed that the contractor was recording all local support functions to the Polar
      Services contract as direct costs. The WBS listing was then reviewed to determine the
      various support functions that were indirect to the program. The significant support
      functions reviewed that were indirect to the program were Finance, Human Resources,
      and Facilities.

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1 of this report. Our reclassification of the
      Miscellaneous ODC is discussed in further detail in Schedule A-3, Note 1 of this report.

2.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

              Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by $                with a
      proportionate decrease in ODC. The contractor’s disclosed accounting practice
      accumulates and classifies these costs as indirect for subsequent allocation to cost
      objectives. As a result, we reclassified these RTSC and Corporate allocations to the
      overhead pool consistent with the contractor’s disclosed accounting practices.




                                              26
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c.     Audit Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a     overhead ceiling rate.

             It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS. The RTSC disclosure statement Revision




             Our reclassification of the RTSC and                       to the
                          is discussed in further detail in Schedule A-3, Note 1 of this report.

3.    RPSC Share of Questioned Allocations

      a.     Summary of Conclusions:

            We have questioned $          related to the FY 2003 audit of Corporate and
      RTSC assessments (Audit Assignment No. 6161-2005T10160208).

             The questioned amount is due to transactions selected for examination that the
      contractor was unable to adequately support. For these unsupported transactions, we
      questioned the associated costs in accordance with FAR 31.201-2(d) which requires the
      contractor to maintain records, including supporting documentation, adequate to
      demonstrate that costs claimed have been incurred, are allocable to the contract, and
      comply with applicable cost principles.

                                               27
Audit Report No. 6161-2003P10100201-S1                                       SCHEDULE B-1

                  In addition, part of the questioned costs also includes promotional merchandise
         that is expressly unallowable in accordance with FAR 31.205-1(f)(6), which makes
         unallowable the costs of souvenirs, models, imprinted clothing, buttons, and other
         mementos provided to customers or the public.

         b.     Basis of Contractor’s Cost:

                The RTSC and Corporate allocations charged on the Polar contract were obtained
         from the Raytheon Technical Services Incurred Cost submissions for fiscal years 2003.

    c.          Audit Evaluation:

              The allocations in total were audited as part of the RTSC and Corporate Incurred
   Cost audits. As part of this audit, we are required to review the audit findings of the incurred
   cost submissions of RTSC and Raytheon Corporate. We reviewed these audits and
   determined that recommended adjustments were made to the claimed costs in those
   submissions and, as such, have incorporated the impact to Polar Services. These costs have
   been questioned in no other audit as they relate to RPSC. We have calculated the impact of
   our audit results on the allowable contract costs because the Polar Services contract has an
   overhead ceiling rate of      (See Exhibit C).




                                                 28
Audit Report No. 6161-2003P10100201-S1                                      SCHEDULE B-2

                               FRINGE BENEFITS
                        COMPUTATION OF AUDIT ADJUSTMENT
                                                                                Questioned
   Union Fringe Audited                           Audited        Claimed      Costs/(Upward
   Code     Pool Rate Labor              Base      Fringe         Fringe       Adjustment)
   RTQ 21925                                      $              $             $
   21906
   RTT 21903
   RTL 20984
   RTA 20983
   RSE 20982
   RTK 20966
   RB 20915
   RTJ 20912
   R01 20900                                         542,138
   Total

    Total Fringe Questioned/Audit Adjustment

EXPLANATORY NOTE:

1. Fringe     Expenses

       a.      Summary of Conclusions:

               An audit of the claimed fringe expenses resulted in questioned costs of $
for FY 2003. The questioned costs resulted from the application of audited RTSC rates as
opposed to the contractor’s claimed rates to the applicable fringe codes for Polar Services.

       b.      Basis of Contractor’s Cost:

               The contractor applies RTSC claimed fringe rates to the labor bases that the Polar
       program participates in. Participation is based on the various union codes applicable to
       the labor incurred.




                                                29
Audit Report No. 6161-2003P10100201-S1                                     SCHEDULE B-2

      c.     Audit Evaluation:

              The labor costs have been segregated based on the applicable fringe bases and
      contractor fiscal year. The RTSC audited fringe rates for FY 2003 were then applied to
      the labor according to the union code associated with the labor bases. The applied fringe
      was then compared to the claimed fringe from the contractor’s incurred cost submission
      for the same time frame resulting in an over application of claimed fringe costs of $
                (See Schedule B-2).

      d.     Contractor’s Response:

              RTSC has reviewed the questioned fringe cots of $               and determined that
      the Polar claimed fringe rates represented preliminary actual rates compiled shortly after
      year-end 2003, not the final fringe rates included in RTSC’s incurred cost claim. RTSC
      agrees that these are not the correct rates; upon negotiation of the RTSC 2003 incurred
      cost claim, the Polar rates will be updated to reflect the appropriate negotiated rates.




                                               30
Audit Report No. 6161-2003P10100201-S1                                       SCHEDULE B-3

                CLAIMED AND AUDITED G&A POOL, BASES AND RATE
                            AND RESULT OF AUDIT

                                                                       Audited
                           Claimed Costs          Questioned           Costs FY
     G&A                      FY 2003            Costs FY 2003          2003             Ref.

     Total Pool                   $                   $                  $              Note 1
     Polar VAB                                                                          Note 2
     Polar G&A Rate

EXPLANATORY NOTES:

1.       G&A Pool Expenses

         a.    Summary of Conclusions:

               Our examination of the Polar G&A pool resulted in questioned allocated cost of $
                 resulting from the FY 2003 RTSC incurred cost audit results.

                RTSC Audit Report No. 6161-2003T10100001 disclosed unallowable costs based
         on FAR 31.205-14 within the RTSC General Management expenses, unallowable costs
         within RTSC Legal, RTSC State Income Tax, and RTSC Restructuring. Raytheon Polar
         Services portion of the RTSC questioned costs is $

         b.    Basis of Contractor’s Cost:

              The contractor’s costs for G&A were based primarily on allocated costs from
         RTSC. No G&A costs were incurred locally on the Polar program.

               RPSC G&A expense represent residual costs allocated based on a value added
         base. The main costs categories included as segment G&A are RTSC general
         management, restructuring, and corporate allocations including legal and state income
         tax.

         c.     Audit Evaluation:

                 We reviewed RPSC G&A Summary Report on the contractor’s SAP Accounting
         System and found no locally incurred G&A expenses. Moreover, RPSC G&A allocated
         costs to Raytheon Polar Services Company were audited in the FY 2003 Incurred Cost
         Audit. Part of this audit consisted in reconciling the expenses representing allocations
                                                  31
Audit Report No. 6161-2003P10100201                                       SCHEDULE B-3

      from the Raytheon Corporate office and the amounts included in the DCAA Raytheon
      Corporate office’s audit report. The FY 2003 RTSC audit results of allocated G&A
      expenses were disclosed under Audit Report No. 6161-2003T10100001 which was
      performed by the Herndon Branch office. This audit report disclosed total questioned
      costs of $          of unallowable G&A expenses from which $             pertains to
      Raytheon Polar Services Company.

      d. Contractor’s     Reaction:

             RTSC agrees that the amounts applicable to Polar Services Company will be
      adjusted, if necessary, to reflect the final negotiated rates.

2.    Value Added G&A Base

      a.     Summary of Conclusions:

             The questioned G&A base cost of $             are solely related to the questioned
      fringe costs. Since the contractor uses a value added G&A base, a reduction in fringe
      costs has an equal effect on the G&A base.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its actual books and records.

      c.     Audit Evaluation:

              The labor costs have been segregated based on the applicable fringe bases and
      contractor fiscal year. The RTSC audited fringe rates for FY 2003 were then applied to
      the labor according to the union code associated with the labor bases. The applied fringe
      was then compared to the claimed fringe from the contractor’s incurred cost submission
      for the same time frame resulting in an over application of claimed fringe costs of $
                (See Schedule B-2).




                                              32
  Audit Report No. 6161-2003P10100201-S1                                                        EXHIBIT C

       OVERHEAD AND G&A COSTS IN EXCESS OF CONTRACT RATE CEILINGS
                      Polar Services Contract No. OPP-0000373
                  Period January 1, 2003 through December 31, 2003

  Overhead:
                                                     Rate
Claimed Rate (-)            Ceiling   Rate=( )       Delta (x)       Claimed     Base=( )       Total   Ref.
 (Exhibit B)                                                             (Exhibit B)
                        -                        =               x                          =                  Note 1
                                                     Rate
 Audited Rate (-)           Claimed Rate=( )         Delta (x)       Audited    Base=( )
(Schedule B-1)                  (Exhibit B)                            (Schedule B-1)
                        -                        =               x                          =                  Note 2

Overhead Costs in Excess of Ceiling

  G&A:
                                                     Rate
Claimed Rate (-)            Ceiling   Rate=( )       Delta (x)       Claimed     Base=( )       Total
 (Exhibit B)                                                             (Exhibit B)
                    -                            =               x                          =                  Note 1

                                                     Rate
Audited Rate (-)            Claimed Rate=( )         Delta (x)       Audited    Base=( )
 (Exhibit B)                    (Exhibit B)
                                                 =               x                          =                  Note 2


G&A Cost in Excess of Ceiling

  EXPLANATORY NOTES:

  1.      Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

          a.        Summary of Conclusions:

                  We computed the overhead and G&A costs in excess of the ceiling rates. These
          amounts represent the cost in excess of the ceiling rates based on the contractor’s claimed
          indirect rates and allocation bases, i.e., without any audit adjustments.




                                                           33
Audit Report No. 6161-2003P10100201-S1                                      EXHIBIT C

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead and G&A Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates that includes the audit
      adjustments discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates that
      reflects our audit adjustments. These amounts represent the costs in excess of the ceiling
      rates based on incorporating the audit adjustments made to the contractor’s indirect cost
      pools and allocation bases. Any comparison to billed costs should be performed after
      final negotiations and resolution with the contractor.

      d.     Contractor’s Reaction:

              RTSC agrees with DCA A that these costs are not allowable on the contract.
      However, according to the contractor the costs are appropriately allocable to the contract
      and therefore need to be included in the incurred cost claim even though there is no
      intention in recovering these costs from the Polar customer.

                                              34
Audit Report No. 6161-2003P10100201-S1                                       EXHIBIT C

              RTSC stated that it has not included any of these over ceiling costs in the billings
      to date and has no intention of billing them in the future.

      e.     Auditor’s Response:

              We disagree that the contractor has not recovered the cost in excess of the ceiling
      rates. The contractor has billed and recovered the over ceiling amounts by reclassifying
      indirect costs as direct (e.g., Corporate/RTSC allocations, etc.). We reclassified these
      direct costs (e.g. locally incurred support costs, Corporate/RTSC allocations, etc.) to
      overhead and computed the amounts that exceeded the contract’s ceiling rates.




                                               35
Audit Report No. 6161-2003P10100201-S1

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC’s headquarters is located in Reston,




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                in FY 2005, of which approximately
percent are primarily government prime contracts and subcontracts. Of the government contracts
and subcontracts, approximately                are flexibly priced (i.e. cost type and time and
materials (T&M) type).

                                               36

                                 FOR OFFICIAL USE ONLY
Page 37 has been redacted in its entirety
Audit Report No. 6161-2003P10100201-S1




                                                                                            .




                                                                                            .




                                                                                            .




                                                                                            .




                                                                                     .


       In Audit Report No. 6161-2006T11070301 dated September 5, 2006, DCAA examined
the Control Environment and Overall Accounting System and the related internal control policies
and procedures. Based on our examination, we concluded that the Control Environment and the
Overall Accounting System and related internal control policies and procedures are adequate.




                                              38

                                FOR OFFICIAL USE ONLY
Page 39 has been redacted in its entirety
Audit Report No. 6161-2003P10100201-S1




                                                                                           .




                                                                                    .




                                                                                    .




                                                                                    .




                                                                                    .




                                                                                    .

       In Audit Report Number 6161-2006T11510301, dated September 26, 2006, DCAA
examined the RTSC information technology (IT) system and related internal control policies and
procedures. Based on our examination we concluded that the IT system general internal controls
are adequate.
                                             40

                               FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201-S1




                                                                                   .

        DCAA reviewed RTSC’s Budget and Planning System and related internal control
policies and procedures under Audit Assignment No. 6161-2006T11020301 dated
September 8, 2006. Based on its review DCAA determined that the RTSC’s Budget and
Planning system and the related internal control policies and procedures are adequate.




                                                                                   .




                                                                                   .




                                                                                   .
                                                                                         .




                                                                                   .

                                             41

                               FOR OFFICIAL USE ONLY
Page 42 has been redacted in its entirety
Audit Report No. 6161-2003P10100201-S1




                                                                                 .
                                                                                 .




                                                                                 .
                                                                                 .




                                                                                 .
                                                                                           .




                                                                                           .

VIII.   Indirect and ODC System

        A.   Raytheon Technical Services Company

               DCAA examined RTSC’s Indirect and Other Direct Cost System of internal
controls under Audit Assignment No. 6161-2005T14980301, with a report issued on
September 28, 2005. Based on its examination, DCAA determined that the RTSC Indirect and
Other Direct Cost System was inadequate in part.




                                            43

                              FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201-S1



                                                                                              .




                                                                                       .
                                                                                       .




                                                                                       .
                                                                                       .




                                                                                       .
                                                                                       .




                                                                                       .

       B.      Raytheon Polar Services Company

                DCAA examined RPSC’s Indirect and Other Direct Cost System of internal
controls under Audit Assignment No. 6161-2004T14980202, with a report issued on December
15, 2005. Based on its examination, DCAA determined that the RPSC Indirect and Other Direct
Cost System was inadequate. The examination disclosed significant deficiencies in all four (4)
of the control objectives (Allowability, Allocability, Management Compliance Reviews, and
Training) applicable to the RPSC indirect and other direct cost system. Those deficiencies could
result in unallowable or misallocated indirect and other direct costs in proposals, billings, and
claims submitted to the U.S. Government. A brief summary of the deficiencies are as follows:
                                               44

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201-S1


            •   The RTSC segment disclosure statement which defines the contractor’s
                current accounting practice regarding indirect and ODC costs, excludes
                Raytheon Polar Services as of January 1, 2005. To date, a disclosure
                statement for Raytheon Polar Services has not been submitted to the
                Government.

            •   Policies and procedures regarding the allowability of selected costs are in
                noncompliance with the Federal Acquisition Regulation (FAR) Part 31.
                Specifically, RPSC policies and procedures address certain costs as allowable
                which, in our opinion, are expressly unallowable based on applicable FAR
                provisions.

            •   Costs that are made expressly unallowable based on the FAR or RPSC/RTSC
                policies and procedures were charged as allowable, indicating that the
                contractor is not adequately complying with established controls to properly
                classify and record unallowable costs. The deficiencies represent a
                noncompliance with CAS 405-40(a), Accounting for Unallowable Costs, FAR
                Part 31, and established company policies and procedures.

            •   The contractor lacks policies and procedures regarding the training of
                employees in the Indirect/ODC system.

            •   The contractor has inadequate policies and procedures regarding periodic,
                independent management reviews and its associated compliance.

            •   We identified inadequacies that affect the allocability of costs indicating that
                the contractor lacks adequate controls to ensure the consistent classification of
                costs based on CAS 418, Allocation of Direct and Indirect Cost [CAS 418-
                40(a)].

                                                                                      .




                                             45

                              FOR OFFICIAL USE ONLY
Page 46 has been redacted in its entirety
Audit Report No. 6161-2003P10100201-S1

       B.     Raytheon Polar Services Company

                DCAA examined Raytheon Polar Services Company’s (RPSC’s) billing system
internal controls under Audit Assignment No. 6161-2005P11010001, with a report issued on
April 3, 2006. Based on its examination, DCAA determined that the RPSC Billing System and
related internal control policies and procedures are inadequate in part. The examination
disclosed seven (7) significant deficiencies in two (2) separate internal control objectives
(Management Reviews and Policies and Procedures) in the RPSC Billing System that results in a
reduction of the Government reliance on RPSC direct and indirect cost billing to the
Government. A brief summary of the deficiencies are as follows:

              •   The RPSC Quarterly Expenditure Report and Advance Payment Requests do
                  not show evidence of Management Reviews prior to submission to the
                  government.

              •   RPSC has no formal training process for reporting expenditures. In addition,
                  RPSC has no training process to assist employees in identifying and
                  monitoring restricted funds and unallowable costs.

              •   RPSC did not brief the contract upon award of the Polar Services contract.
                  Adequate preparation and maintenance of contract briefs as part of the billing
                  process is necessary to disclose all significant requirements and all current
                  and relevant changes to the contract for billing and other RPSC personnel
                  requiring contract specific information.

              •   RPSC has no written policies and procedures requiring segregation of duties
                  between the employee who prepares, approves or certifies the Advance
                  Payment Requests and the Quarterly Expenditure Reports.

              •   RPSC did not provide adequate supporting documentation of an actual
                  process that monitors cost incurred and subsequently billed on restricted Work
                  Breakdown Structures (WBS). We found no process in place to identify,
                  select and approve costs incurred applicable to WBS with restricted funds.

              •   RPSC did not provide any evidence of reconciliations performed between the
                  Quarterly Expenditure Reports and the source of cost (SAP Accounting
                  System). Furthermore, RPSC provided no evidence of comparisons between
                  the actual rates to the billed ceiling rates to ensure that the lower of those rates
                  are always billed.


                                                47

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201-S1

            •   RPSC did not provide adequate supporting documentation on how it monitors
                the adequacy of the subcontractor’s accounting and billing systems in a timely
                manner.


                  The remainder of page 48 has been redacted




                                            48

                              FOR OFFICIAL USE ONLY
Pages 49 through 52 have been redacted in their entirety
Audit Report No. 6161-2003P10100201-S1

             CAS 418: Audit Report No. 6161-2005T19200001, dated June 23, 2005, indicates
that the actual cost accounting practices of one of RTSC’s business units, Raytheon Polar
Services Company (RPSC), are in noncompliance with CAS 418 and with disclosed cost
accounting practices. Specifically, during the period from January 1, 2000 through
December 31, 2002, costs that were disclosed as indirect were recorded and charged direct to the
Polar Services contract. Recording and charging these costs direct to the contract results in 100
percent recovery through contract billings to the government (i.e., National Science Foundation).
On September 28, 2005, the DACO issued an initial finding of noncompliance. In a letter dated
August 22, 2006, the DACO issued a final determination that found Raytheon Polar Services
was in noncompliance with its disclosed accounting practices and CAS 418. In response to the
DACO’s final determination, RPSC submitted a cost impact statement on October 24, 2006. Our
office has scheduled an examination of that cost impact statement to be performed in GFY 2007.




                   The remainder of page 53 has been redacted




                                               53

                                FOR OFFICIAL USE ONLY
Pages 54 through 56 have been redacted in their entirety
Audit Report No. 6161-2003P10100201-S1

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contact(s) regarding this audit:




Other contact(s) regarding this audit report:


                                                             FAX No.


                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                57
Audit Report No. 6161-2003P10100201-S1

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                ail Address
National Science Foundation                     Kstagner@nsf.gov
ATTN: Ms. Deborah Cureton,
Associate Inspector General for Audit           Telephone No.
4201 Wilson Boulevard                           (303) 312-7655
Arlington, VA 22230

Raytheon Polar Services                         (Copy furnished thru ACO)
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191

RESTRICTIONS




                                         58
Audit Report No. 6161-2003P10100201-S1




                            APPENDIX 1

                         Certificate of Final Indirect Costs




                                         59
